HHS/OIG-Audit--"Review of Federal Nonparticipating Foster Care Costs Which the New York State Department of Family Assistance Retroactively Claimed to the Title IV-E Foster Care Program, (A-02-98-02004)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Federal Nonparticipating Foster Care Costs Which the New York State Department of Family Assistance Retroactively
Claimed to the Title IV-E Foster Care Program," (A-02-98-02004)
April 24, 2001
Complete
Text of Report is available in PDF format (601KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The New York State Department of Family Assistance (NYSDFA) (formerly the New York State Department of Social Services)
awarded a contract to the New York State Association of Counties (NYSAC) to implement and administer a Federal Revenue
Maximization Project (FRMP) designed to generate increased Federal funding. According to the terms of the contract, NYSDFA
was to pay NYSAC a fee contingent on the revenue generated under the FRMP.  We reviewed a statistical sample of 100
foster care cases, totaling $1,268,262 (Federal share $634,131), which NYSDFA retroactively claimed to the Title IV-E Foster
Care program.  We found that 7 of the 100 cases reviewed contained claims that were ineligible for Federal reimbursement.  The
total amount improperly claimed to the Title IV-E Foster Care program for the 7 errors was $25,372 (Federal share $12,686).